                                ADVISORY




RECOVERY OVERSIGHT ADVISORY
Blue Ridge Stone Guard Wall




Report No.: RO-F-NPS-036-2011     May 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR                                     MAY 0~ 2011


Memorandum

To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:      ~e1i~
           . Assistant Inspector General for Recovery Oversight

Subject:       Recovery Oversight Advisory - Blue Ridge Stone Guard Wall
               Report No. RO-F-NPS-036-2011

        This advisory, which addresses concerns regarding the Blue Ridge Parkway Stone Guard
Wall project within the National Park Service (NPS), is part of our ongoing effort to oversee and
ensure the accountability of funding appropriated to the U.S . Department ofthe Interior (DOl) in
the American Recovery and Reinvestment Act of 2009 (Recovery Act).

Background

        On February 1, 2011 , we conducted a site visit and tour of the Blue Ridge Parkway Stone
Guard Wall project located in Laurel Springs, NC. The project was awarded on April 26, 2010,
for the reconstruction of an historic stone guard wall. The contract value is $8,789,829. The
contractor invoiced $668,917 through December 31 , 2010. The Construction Management
Representative for NPS noted that the contract was running smoothly, was on schedule, and
indicated the contractor was responsive, especially with safety and environmental issues. We
discussed our site visit questionnaire and supplemental questions raised by our review of the
contract documents. We also appreciate the fact that the parties involved posted project
information on a SharePoint© Web site available to both NPS and the construction management
representative.

Findings

Location of the Project

        Our review indicated the Recovery.gov Web site incorrectly located the project in
Fairfax, V A. The contractor' s business address is in Fairfax, VA, but the project location is
actually in North Carolina, near the city of Laurel Springs. The contractor supplied the incorrect
project location to FederaIReporting.gov. When the contractor was informed about this error, he
responded that he plans to change the project address on the next quarterly report.




                                Recovery OverSight Office I Washington. DC
Federal Acquisition Regulation Clause 52.236-1 Performance of Work by the Contractor

       The contract includes Federal Acquisition Regulation (FAR) clause 52.236-1,
Performance of Work by the Contractor. This clause states:

       The Contractor shall perform on the site, and with its own organization, work
       equivalent to at least _ [insert the appropriate number in words followed by
       numerals in parentheses] percent of the total amount of work to be performed
       under the contract. This percentage may be reduced by a supplemental agreement
       to this contract if, during performing the work, the Contractor requests a reduction
       and the Contracting Officer determines that the reduction would be to the
       advantage of the Government.

        The percentage of work to be performed by the contractor was not specified in the clause
as instructed. NPS personnel indicated that it was an oversight, and the contract will be modified
to require that 15 percent of the contract be performed by the contractor. Subcontractors are
expected to perform hauling, backhoe removal of stones, and paving services.

Davis-Bacon and Related Acts (DBRA) Compliance

         The construction management representative also mentioned that a backhoe and trucks
were on site in November 2010. The backhoe was owner-operated. The drivers of the trucks
were employees of the backhoe owner-operator and worked on the site for several days. During
the site visit, we observed the contractor owner operating a crane. None of these individuals
appeared on the certified payroll. The Field Operations Handbook from the Department of Labor
states:

       As a matter of administrative policy, the provisions ofDBRAlCWHSSA
       (Contract Work Hours and Safety Standards Act) are not applied to bona fide
       owner-operators of trucks who are independent contractors. For purposes of these
       Acts [the Davis-Bacon Act], the certified payrolls including the names of such
       owner-operators need not show hours worked nor rates paid, but only the notation
       "Owner-operator." This position does not pertain to owner-operators of other
       equipment such as bulldozers, scrapers, backhoes, cranes, drilling rigs, welding
       machines, and the like. Moreover, employees hired by owner-operators are
       subject to DBRA in the usual manner.

        The employees mentioned above should have appeared on the certified payrolls.
There were also several categories (e.g., foreman, superintendent, and administrative
assistant) that did not appear on the wage determination in the contract. The contract
Management Representative stated that the workers in the above labor categories were
also employed as laborers. The certified payrolls did not distinguish between the roles
performed. FAR 22.402(a)(1)(i) states that Davis Bacon applies "only to construction
work that is performed by laborers and mechanics at the site of the work. " In general,
foreman, superintendents ', and administrative assistants' time should not be recorded on



                                                                                                 2
the certified payroll. The certified payrolls need to be reflective of time worked on the
site as laborers or mechanics.

Recommendations

We recommend that NPS :

       1.    Confirm that the information on the Recovery.gov Web site is properly updated by
             the contractor;

       2.    Execute a modification to the Performance of Work by the Contractor Clause to
             identify 15 percent as the minimum percentage of work the contractor must
             perform; and

       3.    Review the certified payrolls to ensure compliance with the Department of Labor
             regulations and guidance.

        Please provide a written response to this advisory within 30 days ofreceipt detailing the
corrective actions to be implemented to meet our recommendations, as well as targeted
completion dates and the title(s) of the official(s) responsible for implementation. We will post
this advisory on our Web site (www.doioig.gov/recoveryl) and Recovery.gov. Information
contained in this advisory may also be included in our semiannual reports to Congress. We
performed our work in accordance with the Quality Standards for Inspection and Evaluation
adopted by the Council of the Inspectors General on Integrity and Efficiency. Please contact me
if you have any questions.

cc:    Deputy Secretary, U.S. Department of the Interior
       Director, Office of Executive Secretariat and Regulatory Affairs
       Director, National Park Service
       Assistant Secretary for Policy, Management and Budget
       Acting Director, Office of Financial Management
       Director, Office of Acquisition and Property Management
       Recovery Coordinator, National Park Service
       Departmental GAOl OIG Audit Liaison
       Audit Liaison, Office of the Secretary
       Audit Liaison, National Park Service




                                                                                                    3
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
